<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island
 CHAKA FATTAH, Pennsylvania
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 ROSA L. DeLAURO, Connecticut
 DAVID E. PRICE, North Carolina     RODNEY P. FRELINGHUYSEN, New Jersey
                                    JOHN ABNEY CULBERSON, Texas
                                    HAROLD ROGERS, Kentucky
                                    TOM LATHAM, Iowa
                                    ROBERT B. ADERHOLT, Alabama

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             John Blazey, Marjorie Duske, Adrienne Simonson,
                   Tracey LaTurner, and Diana Simpson
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
PART 8--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2009
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island
 CHAKA FATTAH, Pennsylvania
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 ROSA L. DeLAURO, Connecticut
 DAVID E. PRICE, North Carolina     RODNEY P. FRELINGHUYSEN, New Jersey
                                    JOHN ABNEY CULBERSON, Texas
                                    HAROLD ROGERS, Kentucky
                                    TOM LATHAM, Iowa
                                    ROBERT B. ADERHOLT, Alabama

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             John Blazey, Marjorie Duske, Adrienne Simonson,
                   Tracey LaTurner, and Diana Simpson
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 41-968                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 MARCY KAPTUR, Ohio
 PETER J. VISCLOSKY, Indiana
 NITA M. LOWEY, New York
 JOSE E. SERRANO, New York
 ROSA L. DeLAURO, Connecticut
 JAMES P. MORAN, Virginia
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina
 CHET EDWARDS, Texas
 ROBERT E. ``BUD'' CRAMER, Jr., 
Alabama
 PATRICK J. KENNEDY, Rhode Island
 MAURICE D. HINCHEY, New York
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 JESSE L. JACKSON, Jr., Illinois
 CAROLYN C. KILPATRICK, Michigan
 ALLEN BOYD, Florida
 CHAKA FATTAH, Pennsylvania
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia
 MARION BERRY, Arkansas
 BARBARA LEE, California
 TOM UDALL, New Mexico
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas              JERRY LEWIS, California
                                    C. W. BILL YOUNG, Florida
                                    RALPH REGULA, Ohio
                                    HAROLD ROGERS, Kentucky
                                    FRANK R. WOLF, Virginia
                                    JAMES T. WALSH, New York
                                    DAVID L. HOBSON, Ohio
                                    JOE KNOLLENBERG, Michigan
                                    JACK KINGSTON, Georgia
                                    RODNEY P. FRELINGHUYSEN, New Jersey
                                    TODD TIAHRT, Kansas
                                    ZACH WAMP, Tennessee
                                    TOM LATHAM, Iowa
                                    ROBERT B. ADERHOLT, Alabama
                                    JO ANN EMERSON, Missouri
                                    KAY GRANGER, Texas
                                    JOHN E. PETERSON, Pennsylvania
                                    VIRGIL H. GOODE, Jr., Virginia
                                    RAY LaHOOD, Illinois
                                    DAVE WELDON, Florida
                                    MICHAEL K. SIMPSON, Idaho
                                    JOHN ABNEY CULBERSON, Texas
                                    MARK STEVEN KIRK, Illinois
                                    ANDER CRENSHAW, Florida
                                    DENNIS R. REHBERG, Montana
                                    JOHN R. CARTER, Texas
                                    RODNEY ALEXANDER, Louisiana
                                    KEN CALVERT, California
                                    JO BONNER, Alabama

                  Rob Nabors, Clerk and Staff Director

                                  (ii)

</pre></body></html>
